<html>
<title> - NOMINATIONS OF WILLIAM B. SCHULTZ AND CHRISTOPHER J. MEADE</title>
<body><pre>[Senate Hearing 112-842]
[From the U.S. Government Publishing Office]



                                                      S. Hrg. 112-842
 
       NOMINATIONS OF WILLIAM B. SCHULTZ AND CHRISTOPHER J. MEADE
=======================================================================



                                HEARING

                               before the

                          COMMITTEE ON FINANCE

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

  WILLIAM B. SCHULTZ, TO BE GENERAL COUNSEL, DEPARTMENT OF HEALTH AND 
   HUMAN SERVICES; AND CHRISTOPHER J. MEADE, TO BE GENERAL COUNSEL, 
                       DEPARTMENT OF THE TREASURY

                               __________

                           DECEMBER 20, 2012

                               __________

                                     
                                     

            Printed for the use of the Committee on Finance





                  U.S. GOVERNMENT PRINTING OFFICE
86-408                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                          COMMITTEE ON FINANCE

                     MAX BAUCUS, Montana, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
KENT CONRAD, North Dakota            OLYMPIA J. SNOWE, Maine
JEFF BINGAMAN, New Mexico            JON KYL, Arizona
JOHN F. KERRY, Massachusetts         MIKE CRAPO, Idaho
RON WYDEN, Oregon                    PAT ROBERTS, Kansas
CHARLES E. SCHUMER, New York         MICHAEL B. ENZI, Wyoming
DEBBIE STABENOW, Michigan            JOHN CORNYN, Texas
MARIA CANTWELL, Washington           TOM COBURN, Oklahoma
BILL NELSON, Florida                 JOHN THUNE, South Dakota
ROBERT MENENDEZ, New Jersey          RICHARD BURR, North Carolina
THOMAS R. CARPER, Delaware
BENJAMIN L. CARDIN, Maryland

                    Russell Sullivan, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)




                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Baucus, Hon. Max, a U.S. Senator from Montana, chairman, 
  Committee on Finance...........................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     3
Schumer, Hon. Charles E., a U.S. Senator from New York...........     9

                        ADMINISTRATION NOMINEES

Schultz, William B., nominated to be General Counsel, Department 
  of Health and Human Services, Washington, DC...................    10
Meade, Christopher J., nominated to be General Counsel, 
  Department of the Treasury, Washington, DC.....................    11

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Baucus, Hon. Max:
    Opening statement............................................     1
    Prepared statement...........................................    29
Grassley, Hon. Chuck:
    Prepared statement...........................................    33
Hatch, Hon. Orrin G.:
    Opening statement............................................     3
    Prepared statement...........................................    34
Meade, Christopher J.:
    Testimony....................................................    11
    Prepared statement...........................................    37
    Biographical information.....................................    38
    Responses to questions from committee members................    47
Schultz, William B.:
    Testimony....................................................    10
    Prepared statement...........................................    64
    Biographical information.....................................    65
    Responses to questions from committee members................    81
Schumer, Hon. Charles E.:
    Opening statement............................................     9

                                 (iii)


                   NOMINATIONS OF WILLIAM B. SCHULTZ,


                   TO BE GENERAL COUNSEL, DEPARTMENT

                   OF HEALTH AND HUMAN SERVICES; AND


                  CHRISTOPHER J. MEADE, TO BE GENERAL


                  COUNSEL, DEPARTMENT OF THE TREASURY

                              ----------                              


                      THURSDAY, DECEMBER 20, 2012

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:34 p.m., 
in room SD-215, Dirksen Senate Office Building, Hon. Max 
Baucus, (chairman of the committee) presiding.
    Present: Senators Wyden, Schumer, Stabenow, Cantwell, 
Carper, Hatch, Grassley, Roberts, Coburn, and Thune.
    Also present: Democratic Staff: Amber Cottle, Chief 
International Trade Counsel; Rory Murphy, International Trade 
Analyst; and Tiffany Smith, Tax Counsel. Republican Staff: 
Chris Campbell, Staff Director; and Nick Wyatt, Tax and 
Nomination Professional Staff Member.

   OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM 
            MONTANA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The hearing will come to order.
    I know that for some on this committee there is a hard 4 
o'clock deadline. We will try to move expeditiously and in a 
way that all Senators who wish to ask questions will have an 
opportunity to do so, hopefully before 4, but, if not before 4 
today, then at a later date they can ask questions. But I think 
there is a very good chance we can wrap it up today, again, by 
4 o'clock.
    In his speech on leadership delivered more than 100 years 
ago, President Theodore Roosevelt said, ``It is not the critic 
who counts; not the man who points out how the strong man 
stumbles, or where the doer of deeds could have done them 
better. The credit belongs to the man who is actually in the 
arena, whose face is marred by dust and sweat and blood; who 
strives valiantly; who errs, who comes up short again and 
again, because there is no effort without error and 
shortcoming; but who does actually strive to do the deeds; who 
knows great enthusiasms, the great devotions; who spends 
himself in a worthy cause; who at the best knows in the end the 
triumph of high achievement, and who at the worst, if he fails, 
at least fails while daring greatly, so that his place shall 
never be with those cold and timid souls who know neither 
victory nor defeat.''
    This quote hangs on the wall in my office. It serves as a 
powerful reminder about the importance of political leadership. 
Today I want to thank four members of our committee who are 
leaving. This will be their last hearing. I am not sure how 
many will be able to attend, but I want to mention them because 
they are such terrific people.
    The first is Kent Conrad. We all remember Kent for many 
reasons: for his charts--he informs us with great precision on 
various economic matters; second, as a valiant member of the 
Bowles-
Simpson Committee, the Gang of 6, the Gang of 8, who has 
devoted himself to getting our debt down; as someone who worked 
so hard on the passage of health care legislation, especially 
the Affordable Care Act, and contributed greatly and mightily, 
with very precise questions and great contributions, always 
looking for a better solution, always trying to make something 
better--not critical, but constructive. I just want Kent to 
know how much we are going to miss him here.
    Second, Jon Kyl. When I think of Jon, I think of a man of 
superior intelligence who has an encyclopedic knowledge of 
policy, who is tenacious, and who is a great multi-tasker. He 
is always very busy, with many balls up in the air. He works so 
hard, especially with respect to Federal estate tax. That means 
a lot to Jon to make sure it is written in a way that makes 
sense to him. All of this has not gone unnoticed. Time magazine 
named Jon one of the 100 most influential people in the world 
for his persuasive role in the Senate.
    Next to Jon, of course, is Jeff Bingaman. I do not know 
anybody here with more quiet, thoughtful, statesmanlike 
perception, who devotes himself to hard work and does not pat 
himself on the back, than Jeff Bingaman. He is really 
something. I mean, he reminds me a little bit of the old 
commercial, the E.F. Hutton commercial: ``When Jeff speaks, 
everybody listens.'' Because what Jeff says is very thoughtful, 
he has thought it through, and he is several steps ahead of 
everybody else. We will very much miss Jeff on this committee 
for his tireless work on the Children's Health Insurance 
Program, and helping to improve Medicaid. Not a show-horse at 
all, but he is a work-horse in the best sense of the term.
    Fourth is Olympia, Olympia Snowe. When I think of Olympia, 
I think of someone who is so dedicated to her State, who just 
keeps asking the questions, what about this, what about that? 
Olympia, what do you think? I do not know. I have to think this 
through more; I am not sure. It is because she wants to make 
sure she gets it right.
    Over here on the dais, if you look at her notes, I have 
never seen anyone with more underlines, with more highlights. 
Some are yellow highlights, others are red highlights, some are 
circled. She is prepared. She came to this hearing fully, 
totally prepared. She also is clearly a class act and a real 
statesman, very bipartisan.
    I will never forget working with her. She is the only 
Republican who voted for the Affordable Care Act on the 
committee--not on the floor, but in the committee--and in just 
talking with Olympia, gee, we will change this, Olympia, what 
about this? Then, I do not know, let us see on this. Then 
finally she said, ``Okay.'' She is a wonderful, wonderful 
person.
    So, thank all four of you for all that you have done.
    I also want to acknowledge the work of our friend Mark 
Matthiesen. There is Mark, sitting in the front row there, who 
recently announced his retirement. For the past 31 years, Mark 
has worked on tax legislation in the Office of the Senate 
Legislative Counsel. Thank you, Mark, very much for your work. 
Congratulations for your next endeavor, whatever you choose to 
do.
    Let us give Mark a round of applause. [Applause.]
    On a final note, earlier today I announced that our friend, 
whom all of you know and love, Russ Sullivan, will be leaving 
the Senate at the end of this Congress. A true friend, 
respected colleague for the last 18 years, he is just amazing. 
I do not know anybody else like Russ and his ability just to 
work with people on both sides of the aisle, talking quietly, 
looking for solutions, bipartisan, how do we get this done, how 
do we find the right way to do this, not partisan, just looking 
pragmatically, practically, getting a good solution for our 
country. I can think of no higher honor than the work that Russ 
has done for all of us in the committee, the Senate, and for 
the country. A big round of applause for Russ Sullivan. 
[Applause.]
    While we are missing Russ, we are fortunate to have someone 
who is just as smart and talented as Russ to take Russ's 
position as Chief of Staff of the Finance Committee, and that 
is Amber Cottle. She has been my top trade person. She has the 
same tenacity, focus, intelligence, and dedication as Russ. So 
thank you, Amber, for agreeing to join us and keep up all our 
work.
    Do you want to say something at this point?
    Senator Hatch. Yes, why don't I? Then we can go back.
    The Chairman. All right.

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Well, I appreciate the chairman allowing me 
to pay compliments too. He has mentioned a number of the 
people, of course, whom I very much appreciate as well. I 
appreciate the opportunity to pay tribute to those who will be 
leaving the Senate and this committee at the end of the year.
    I want to thank you, Mr. Chairman, for setting apart the 
time for this purpose. I appreciate all the hard work members 
of this Finance Committee have put in over the past 2 years. It 
has been a great experience to work with every member of this 
committee, more so than in some other committees in the Senate. 
You probably know some of them.
    The Finance Committee is often able to accomplish its tasks 
on a bipartisan basis. Much of that is due to the leadership of 
Chairman Baucus, but it can also be attributed to the 
commitment and effort displayed by all of the individual 
members of the committee, and I appreciate it.
    With the conclusion of this Congress, four great Senators 
will be leaving the Finance Committee. They will all be missed, 
so I would like to just take a second or two to say something 
about each of them.
    Let me start by saying a few words about Senator Olympia 
Snowe. Senator Snowe has been a fiercely independent voice on 
the committee and in the Senate. I have long admired her 
commitment to her principles and to the people of her home 
State of Maine as well. Maine has been very well-represented 
here in these past 18 years, as Senator Snowe has worked to 
advance and reflect Maine's values here in the Senate.
    In 2006, Senator Snowe was named one of America's 10 best 
Senators by Time magazine. In bestowing this honor, they said 
that, while Senator Snowe is ``a major player on national 
issues, she is also known as one of the most effective 
advocates for her constituents.'' I have to say that I agree 
with Time's assessment. She has tirelessly worked to be 
responsive to the people of Maine, to address their concerns 
here in the Senate, and once again to reflect their values with 
her votes and her decision-making. It is no wonder that she has 
always enjoyed high approval ratings among her constituents.
    And do you know who else was on that list? Senator Jon Kyl. 
I have worked closely with Senator Kyl on a number of issues 
over the years. I have worked with him here on the Finance 
Committee, on the Judiciary Committee, and of course in his 
position in the Senate Republican leadership. He is an 
incredible strategist and a brilliant lawyer, with an almost 
unparalleled intellect. I called him a lion of the law the 
other day, because he really is.
    I do not know of a single Republican Senator who has not, 
at one time or another, relied on Senator Kyl's leadership and 
expertise on any number of issues. Senator Kyl has been a 
relentless advocate for conservative values on issues ranging 
from national security to judicial appointments, and in such 
areas he has been a leader that I personally have relied on for 
advice and counsel.
    Senator Kent Conrad was also on the Time magazine list. I 
think this says something about this committee. For years he 
has led his party in some fierce budget battles here in the 
Senate. While I have not always agreed with his views, I have 
never doubted that, when it came to the budget, he always knew 
what he was talking about. I think it was all about the charts, 
myself. It is hard to debate someone who has so many charts to 
back up his arguments.
    Over the last couple of years I have tried to follow 
Senator Conrad's example and have exponentially increased my 
use of charts on the Senate floor. I am not as good at it as he 
is, is all I can say. Now I see why Senator Conrad does it. 
When I use charts, no one wants to debate me either. 
[Laughter.] Joking aside, Senator Conrad and his charts will be 
missed, both on the Senate floor and here in the Finance 
Committee.
    Well, I have to say that Senator Jeff Bingaman was not on 
that Time magazine Ten Best Senators list; of course neither 
was I or our distinguished chairman.
    The Chairman. Speak for yourself. [Laughter.]
    Senator Hatch. Were you on that list?
    The Chairman. No.
    Senator Hatch. Well, you should have been. [Laughter.] So 
it could not have been much of a list anyway. [Laughter.]
    I have sat with Senator Bingaman for most of my time here 
in the Senate. If you know the both of us, you know that we do 
not often find ourselves on the same side of many of the 
issues. Even so, we found ways to work together. For example, 
for a number of years I worked with Senator Bingaman on his 
legislation to help self-employed individuals deduct their 
health care costs when compiling their self-employment income.
    Jeff has become something of an institution in New Mexico, 
having represented the State here in the Senate for 30 years. I 
know that there are many in his State who are, like us here in 
the Senate, sad to see him go.
    Now, Mr. Chairman, an unfortunate part of serving in the 
Senate is seeing good Senators and good friends come and go. 
Each of the four Senators leaving our committee this year is a 
devoted public servant, and they have worked hard, and they 
have worked hard in the best interests of their constituents. I 
know that they will all continue to serve their country in 
different capacities after they leave the Senate.
    I have come to admire each of these Senators. They are 
great Senators, and I am proud to call them all friends. I 
thank you for taking this time to do this, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Woodrow Wilson once said, ``I not only use all the brains 
that I have, but all that I can borrow.'' This administration, 
like all administrations, faces a great number of challenges. 
They need a great number of bright and talented people to work 
together to find solutions. The two nominees before us today 
are among the best and the brightest. They seek to be the 
General Counsels of the Department of the Treasury and the 
Department of Health and Human Services. These agencies will 
depend on their advice and expertise for implementing laws 
informing our country's economic and health policies.
    In August, President Obama nominated Christopher Meade to 
be the General Counsel of the Department of the Treasury. Mr. 
Meade came to the Treasury in 2010 and this summer took over as 
the acting General Counsel. This experience and his trusted 
knowledge of the law will serve him very well.
    After graduating from Princeton and then the New York 
University School of Law, Mr. Meade clerked for Supreme Court 
Justice John Paul Stevens. Years later, he returned to the 
Supreme Court to argue four high-profile cases before the 
court. In reviewing his career, a consistent theme is apparent: 
he is respected, trusted, and Mr. Meade knows the law.
    If confirmed, Mr. Meade will use his experience to counsel 
the Secretary and all at the Treasury Department on economic 
and financial affairs, both domestic and international. These 
policies affect every person in America, and Mr. Meade's sound 
judgment is essential.
    President Obama selected William Schultz to be the General 
Counsel of the Department of Health and Human Services. This 
position demands a high level of expertise to assist in the 
analysis and implementation of our Nation's health care laws.
    A graduate of Yale and then UVA Law School, Mr. Schultz 
gained experience through a long and varied career, much of it 
in public service. He currently serves as acting General 
Counsel at HHS. He came to the agency in 2011 after working at 
the Department of Justice, the FDA, and in the private sector.
    Mr. Schultz was a well-respected professor at Georgetown 
Law, sharing his knowledge with hundreds of students. He 
published many scholarly articles throughout the years, 
covering issues from the FDA to the Supreme Court. His writings 
have appeared in the New York Times and the Georgetown Law 
Journal.
    Both Mr. Schultz and Mr. Meade must bring thoughtfulness 
and a command of the law to their respective agencies. Their 
records show them to be qualified for these positions. I 
believe the administration will benefit from borrowing the 
knowledge, experience, and perspective from both nominees, and 
I think they will do a great job.
    [The prepared statement of Chairman Baucus appears in the 
appendix.]
    Senator Hatch?
    Senator Hatch. Well, thank you, Mr. Chairman. I want to 
take a moment to once again express my concerns about a growing 
problem relating to Congress's dealings with the Obama 
administration, because I believe it is relevant to today's 
hearing. But before I do, I know Mr. Schultz very, very well, 
and I do know of Mr. Meade, and I support both of them. I hope 
we can get you through before the end of the year. I doubt that 
is going to happen, but we will see what can happen.
    But there is a growing problem relating to this Congress's 
dealings with the President, or should I say with the Obama 
administration, and I believe it is relevant to today's 
hearing.
    As part of the case against King George III, the Second 
Continental Congress repeatedly noted in the Declaration of 
Independence that King George had consistently frustrated the 
attempts of the colonies to govern themselves. In these 
grievances, we see frustration with a strong executive 
authority that dominated the legislative authority.
    The very first grievance against the King noted in the 
Declaration states, ``He has refused his assent to laws, the 
most wholesome and necessary for the public good.'' Later, the 
Revolutionaries indicted the King ``for suspending our own 
legislatures and declaring themselves invested with power to 
legislate for us in all cases whatsoever.''
    Now, these grievances were the inspiration for our 
Constitution, among other grievances, which created a system of 
checks and balances between the executive and legislative 
branches. Put simply, our system of government was designed so 
that Congress would be tasked with writing the laws that the 
executive branch implements.
    Now, more than 200 years later, many would argue that the 
executive branch has become more powerful, perhaps too 
powerful, at the expense of Congress. Congress shares 
significant blame for this. In an editorial published last year 
in the Washington Post, former HHS Secretary Michael Leavitt 
noted that Obamacare contains the phrase ``the Secretary 
shall'' nearly 2,000 times.
    Even during his tenure, Secretary Leavitt noted that he had 
been advised that HHS ``has more power than a good person needs 
or a bad person ought to have.'' HHS is more powerful now than 
it has ever been before. Among literally hundreds of other 
functions, Obamacare designates that the HHS Secretary will 
develop ``tooth-level surveillance.''
    As such, perhaps the next nomination to HHS Secretary ought 
to be jointly referred to this committee and the Committee on 
Homeland Security and Governmental Affairs. The continued 
abdication by Congress of legislative power and the 
accumulation of that power by the executive branch make the 
positions of Chief Counsel at HHS and Treasury very important.
    The two nominees before us, if confirmed, would wield vast 
influence over decisions that might impact the lives of every 
American. This is why I, along with many of my colleagues, 
believe that thorough oversight of the executive branch is 
critically important to preserving our system of checks and 
balances. That is in spite of the fact that I support both of 
these gentlemen, knowing their qualifications.
    The level of responsiveness from the administration, 
specifically HHS and Treasury, to written requests for 
information, has continued to be lackluster at best. I, along 
with many other members, have raised this issue numerous times, 
but to no avail.
    Both of the nominees today are currently serving in an 
acting capacity in the roles to which they have been nominated. 
Consequently, they know agency practice--and have worked within 
the existing agency structure--including how the agency 
responds, or in many cases does not respond, to informational 
requests from Congress.
    I would respectfully suggest that, when you return to your 
agencies, you pass along a reminder that at least some in 
Congress find the lack of responsiveness to be entirely 
unacceptable. My goal is to be able to work together with the 
executive branch, and I think our system of government works 
better when our two branches of government cooperate. I hope 
that any nominee who comes before this committee does not 
believe that their responsibility to work and communicate with 
Congress ends with their confirmation.
    There have been several recent instances in which nominees 
have pledged to me and this committee that they would work to 
promote transparency and would be responsive to Congress. 
Unfortunately, following confirmation those pledges have too 
often been abandoned. I know that Chairman Baucus recognizes 
the need for transparency and responsiveness and that he will 
work with me on finding a solution to this problem.
    To his great credit, he has repeatedly shown leadership in 
this committee, backing up any member's request to any agency 
of government. I want him to know that I appreciate his 
leadership and support in this matter, and in so many other 
ways as well.
    Finally, I want to conclude with a brief statement on the 
scheduling of this particular hearing. Mr. Chairman, I assume 
that there are many in the administration and on your side of 
the aisle who would like to see these nominations move quickly. 
I may be among them. However, when we rush these proceedings, 
it seems to me, particularly so near to the end of this 
Congress, we may be doing the committee and the nominees a 
disservice.
    As you know, there is a very important Republican 
conference meeting today at 4 o'clock. Despite that, it was 
decided that a good portion of this hearing would be devoted to 
honoring our colleagues leaving the Senate.
    Now, I appreciate the desire to honor those who deserve it, 
as our colleagues do, but that should not cause the hearing to 
get short shrift. In particular, I do not want to unduly limit 
questions from members of the committee in order to complete 
the hearing in a shortened time line.
    Now, these nomination hearings are more than just a box to 
be checked: they are essential to ensuring that we adequately 
fulfill our advice and consent responsibilities here in the 
Senate. I just hope that, as we go into the future, we will 
keep that in mind under all circumstances.
    One other thing. I hope when you folks finally get 
confirmed that, when we send a request for information, we do 
not get stiffed like we have been getting stiffed the last 4 
years. Frankly, it has been not only noticeable, it is 
offensive. We are going to have to see that that changes.
    We do not ask these questions just for meanness or just to 
try to make political points; we are asking them because we do 
not have the knowledge and we do not have the understanding we 
would like and we have some things that we are concerned about. 
So, if you will keep that in mind as you serve back there--and 
when I say back there, with the administration back over 
there--we would appreciate it.
    Mr. Chairman, I am sorry I went on so long, but I can 
appreciate both of you and I am for both of you, but I wanted 
to make those points.
    The Chairman. Thank you, Senator. Those are very good 
points. Number one is the importance of oversight, in this case 
especially with the Affordable Care Act and HHS--this next year 
is going to be a very busy year before this committee--to make 
sure that that Act is implemented well.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. There are a lot of questions--a lot of 
questions--with respect to implementation, some of them have to 
do with the exchanges, and there is going to have to be 
interplay between HHS, IRS, and probably other agencies too. To 
be honest, I am getting nervous that we are not going to be 
ready when the first person is filed, I guess in October, I 
think it is. So I am asking you, both of you, especially you, 
Mr. Schultz, when you go back, to say, we have to get ready, 
because this committee is going to have a lot of oversight 
hearings with respect to the Affordable Care Act.
    Point number two is just confirming what Senator Hatch 
said, namely that this committee is going to be looking for 
prompt responses to written requests, written questions that 
Senators may ask. We have backed each other up. Sometimes this 
party is in the majority, sometimes the other party is in the 
majority, but we back each other and every other member of this 
committee. We could just be doing ourselves a lot of good if we 
just, again, promptly answer.
    We are really a team here. We want to help. We are not 
performing an adversarial role. We are not here to criticize; 
we are here to work, to make this government work, so take 
advantage of that. You can take advantage of that by working 
very closely, almost even aggressively and cooperatively and 
constructively, with this committee.
    Senator Schumer. Mr. Chairman?
    The Chairman. The Senator from New York.
    Senator Schumer. Yes. I would like to make a brief 
introduction of one of the nominees who is a New Yorker. Thank 
you.
    The Chairman. You are welcome.

         OPENING STATEMENT OF HON. CHARLES E. SCHUMER, 
                  A U.S. SENATOR FROM NEW YORK

    Senator Schumer. Before I do that, I would just like to 
mention--I am sure we will have time to say more--that Russ 
Sullivan, as you have said, Mr. Chairman, has done an 
incredible job. I cannot think of a single staff person who 
will be more sorely missed than Russ.
    So thank you, Russ, for your total dedication all the years 
I have been on the Finance Committee, and you were even very 
helpful to many members, myself included, before we were on the 
Finance Committee. So, we will miss you, and wish you godspeed.
    It is my honor, Mr. Chairman, to be able to introduce to 
this committee Chris Meade, who has been nominated by the 
President to be General Counsel of the Treasury. Chris is a New 
Yorker. He was born in Yonkers, NY. He met his wife Stella, who 
is here today with him, in New York. Joining him today are his 
mother, Mary Ann, and his beautiful young children: Nora, who 
is three, and Elliot, who is 3 months. If they would like to 
stand so we can just say hi. Hi, Mary Ann. I think we heard 
from either Nora or Elliot a second ago. Anyway, thank you.
    Chris completed his undergraduate studies at Princeton 
before attending NYU Law School, where he was editor-in-chief 
of The Law Review and graduated magna cum laude.
    Up until coming to work for the administration, he had 
spent almost his entire life in New York. The only 2 years away 
prior to his joining Treasury were when he served as a law 
clerk to John Paul Stevens, a justice of the U.S. Supreme 
Court, and Judge Harry T. Edwards of the DC Circuit.
    In addition to these very impressive clerkships, Chris has 
been a partner at Wilmer, Cutler, Pickering, Hale, and Dorr. 
There he was a member of both the litigation and securities 
departments, and the appellate and Supreme Court litigation 
group.
    Almost 3 years ago, Chris moved his family from New York to 
Washington--boo-hoo--in order to serve in the administration. 
He has served as the principal Deputy General Counsel at 
Treasury since March 2010, and by all accounts has done an 
exceptional job. So, Mr. Chairman, I am delighted the President 
nominated him to serve as General Counsel, and I hope he is 
confirmed quickly.
    The Chairman. Thank you, Senator.
    I would now like you each to give your statements. Before 
you do, Mr. Schultz, I will give you an opportunity to 
introduce any friends, family, associates who may be here whom 
you want to recognize.
    Mr. Schultz. Yes. Thank you so much, Mr. Chairman. I would 
like to introduce my wife, Sari Horwitz, and my daughter, 
Rachael Schultz. Rachael is completing her senior year at 
Washington University in St. Louis. They are the best part of 
my life. They make everything worthwhile.
    The Chairman. Are they here? Could you stand? Please stand 
and be recognized. Welcome, very much. [Applause.]
    And, Mr. Meade, Senator Schumer mentioned some of your 
family. Why don't you also, again, recognize your family and 
friends?
    Mr. Meade. Thank you, Mr. Chairman. I would like to 
introduce and welcome my family: my wife Stella, who is 
standing in the back; my beautiful daughter Nora, who is 3\1/2\ 
years old; and my baby son Elliot, who is nearly 3 months old. 
He is in the BabyBjorn with my wife there.
    The Chairman. We see him. Right.
    Mr. Meade. My mother, Mary Ann Meade. I also want to 
acknowledge my father, Bill Meade, who passed away a few years 
ago. We miss him today. Also, I have a number of friends and 
colleagues here, and I am very grateful for their coming and 
for their support.
    The Chairman. Could you all stand up, everybody? Let us 
recognize you. Come on, let's go. [Applause.]
    All right. Good. Very good. Wonderful. All right.
    Mr. Schultz, as you know, your written statement is 
automatically included in the record, and we urge you to 
summarize for about 5 minutes.

   STATEMENT OF WILLIAM B. SCHULTZ, NOMINATED TO BE GENERAL 
 COUNSEL, DEPARTMENT OF HEALTH AND HUMAN SERVICES, WASHINGTON, 
                               DC

    Mr. Schultz. It is a brief statement. Thank you, Mr. 
Chairman, Senator Hatch, and members of the committee. I am 
honored to appear as the President's nominee to be General 
Counsel of the Department of Health and Human Services.
    The Department has more than 65,000 employees whose mission 
is to assure that the American people have access to high-
quality and affordable health care, to support children and 
families, to ensure the safety of the food supply and that 
medical products are safe and effective, and to support 
research that will improve health and save lives.
    The Office of General Counsel advises the Department on the 
legal authorities that Congress has given the agency and on the 
legal constraints that Congress has imposed. It also works with 
components of HHS and the Department of Justice to ferret out 
fraud against the government, to ensure compliance with the 
law, and to defend the government against legal challenges to 
government programs.
    I believe my experience has prepared me for this position 
and has equipped me with the relevant skills, as well as with 
an understanding of the appropriate role of a General Counsel. 
I have worked in all three branches of government and in the 
private sector on litigation and regulatory matters.
    Since March 2011, I have served as the Acting General 
Counsel of the Department. Prior to that time, I was a partner 
at the law firm of Zuckerman Spaeder, and prior to that I spent 
11 years in government. This included 5 years as counsel to the 
House Subcommittee on Health and the Environment, 4 years as 
the Deputy Commissioner for Policy to the Food and Drug 
Administration, and 2 years as Deputy Assistant Attorney 
General at the Department of Justice in charge of civil 
appellate litigation.
    I began my career as a law clerk to a Federal District 
Court judge here in Washington, DC and then worked for 14 years 
at Public Citizen Litigation Group, a public-interest law firm.
    I am fortunate that the HHS Office of General Counsel is 
populated by enormously talented and committed attorneys and 
other staff, many of whom are here today, and I appreciate 
that.
    I am also grateful to have the opportunity to work with 
Secretary Sebelius, Deputy Secretary Bill Corr, and the other 
extraordinary officials at the Department. Throughout my 
career, Mr. Chairman, I have found public service, and in 
particular government service, both to be extremely challenging 
and extremely rewarding.
    I feel very fortunate to be nominated for this position. 
The mission of HHS could not be more important. If I am 
confirmed, I look forward to working with the members of this 
committee and will do my very best to ensure that the laws that 
Congress has enacted are faithfully implemented. Thank you for 
the opportunity to be here today, and of course I would be 
happy to answer any questions.
    The Chairman. Thank you very much, Mr. Schultz.
    [The prepared statement of Mr. Schultz appears in the 
appendix.]
    The Chairman. Mr. Meade, you are next.

  STATEMENT OF CHRISTOPHER J. MEADE, NOMINATED TO BE GENERAL 
      COUNSEL, DEPARTMENT OF THE TREASURY, WASHINGTON, DC

    Mr. Meade. Thank you, Chairman Baucus, Ranking Member 
Hatch, Senator Schumer for the kind introduction, and members 
of this committee, for the opportunity to appear before you 
today. I am honored that President Obama nominated me for this 
position, and I am grateful to Secretary Geithner for 
recommending me to the President.
    My parents instilled in me a deep commitment to public 
service, a value that I hope to pass on to my children. This 
commitment has been reinforced throughout my career. At the 
beginning of my career, I had the honor and privilege to serve 
as a law clerk to Justice John Paul Stevens and Judge Harry T. 
Edwards of the DC Circuit. They are not only great jurists, 
they are great public servants.
    I spent the core of my legal career as a partner at a law 
firm that is deeply committed to public service. I learned from 
many great lawyers there, including many who have served our 
country with distinction.
    I have spent nearly 3 years now serving as the Principal 
Deputy General Counsel at Treasury. The scope of legal issues 
within Treasury is vast, ranging from domestic and 
international economic affairs, terrorist financing and 
enforcement, tax, ethics, and administrative law.
    My service has given me great respect for the Treasury 
Department and, in particular, for the talent and expertise of 
the career lawyers at Treasury. If confirmed, I look forward to 
working closely with Congress, and in particular with members 
of this committee. I have enormous respect for this 
institution, and it is an honor to appear before you today. I 
am deeply committed to maintaining a close working relationship 
between Treasury and Congress.
    Mr. Chairman, I am grateful to you for bringing me before 
this committee today, and I would be pleased to respond to any 
questions that you or other members of the committee may have. 
Thank you.
    The Chairman. Thank you, Mr. Meade.
    [The prepared statement of Mr. Meade appears in the 
appendix.]
    The Chairman. I have four obligatory questions I would like 
to ask each of you, if you would just indicate, hopefully 
affirmatively, your response to each.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated?
    Mr. Schultz. No.
    Mr. Meade. No.
    The Chairman. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Schultz. No.
    Mr. Meade. No.
    The Chairman. Do you agree, without reservation, to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress, if you are confirmed?
    Mr. Schultz. Yes, I do.
    Mr. Meade. Yes, I do.
    The Chairman. And finally, do you commit--this is a new 
one--to provide a prompt response in writing to any written 
questions addressed to you by any Senator of this committee?
    Mr. Schultz. Yes.
    Mr. Meade. Yes.
    The Chairman. Thank you both very much.
    Now, my basic question to each of you is, why in the world 
does each of you want this job? What do you want to accomplish? 
How do you want to be remembered when you leave and people look 
back 10, 15 years from now? I will start with you, Mr. Schultz.
    Mr. Schultz. People, when I was in my law firm, said, what 
is the difference between working here and working for the 
government? What I used to say is, the difference is, I work 
here on issues that I would never have time to get to in 
government. The reason that I love public service is that you 
get to work on things that are important, the most important 
kinds of challenges, the same way I did when I was on the staff 
on the Hill and in other government jobs.
    I am fortunate to have at HHS this terrifically talented 
group of lawyers and others to be able to work with. Our goal 
is to ensure that the laws that Congress has passed are 
implemented and instituted in a faithful way, in the most 
honest way. That is our job as General Counsel, in a sense to 
protect you, to ensure that we are following the laws, and to 
defend the government against challenges to those laws.
    The Chairman. You have been here a little while. Is there 
anything more specific that you are working on where there is 
more focus, something a little more identifiable, so when you 
look back after several years you can say, boy, we did that?
    Mr. Schultz. The big thing is the Affordable Care Act. It 
is so thrilling to be at the Department at a time when we have 
the opportunity to provide health care to 35 million Americans, 
which is the goal of the Affordable Care Act. I hope I will 
look back and say, we got it right, we got it implemented, and 
we did it in a way where there were not many challenges and 
they were not very successful. That is the basic goal.
    There are other extremely important challenges. The Food 
and Drug Administration regulates a quarter of all the products 
sold in the economy and has the mission of ensuring that 
medical products are safe and effective, and there are constant 
challenges there, whether they are court cases or other issues 
that come up. But I think the Affordable Care Act----
    CMS, as you know, has a budget of about $800 billion, and 
we are constantly trying to ensure that that money is spent 
only in a way that is permitted by Congress, that it is 
efficient. There are many court cases. I told somebody 
recently, if I only worked on matters that involved $1 billion 
or more, I would still be too busy. So part of the effort is 
obviously to try to protect the government fisc, but assure 
that the agency can do its job and that these very talented 
officials can do their work.
    The Chairman. Thank you.
    Mr. Meade, what about you? Why do you want this job? What 
did you tell your family when you told them you wanted to do 
this?
    Mr. Meade. For me, it relates to the commitment to service 
that I outlined in my opening statement. To me, it is a 
question that answers itself, because there is really no higher 
honor than to be able to serve the country in this way. I am 
honored to be considered, and it is a great privilege and honor 
to serve. If confirmed, I would look forward to continuing.
    In terms of how I would want to be remembered, I mean, one 
of my mantras in life is to always want to do better. That is 
how I think about us within the Legal Division at Treasury. We 
have excellent lawyers, great lawyers, thoughtful lawyers, 
careful lawyers, lawyers who strive to be the best lawyers they 
can be and to give the best advice to the Secretary and other 
officials within Treasury. But in my view, I think we always 
want to do better, we want to be more thoughtful, more careful, 
more analytically precise. That is what I would hope to do, if 
I am confirmed as General Counsel.
    The Chairman. Next year could be a big year. We could be 
deeply involved with tax reform. Do you think the IRS and 
Treasury have sufficient resources? What assistance do you 
think Treasury and IRS could provide this committee as we work 
toward reform? How do you see your role, your office? What 
assistance can you provide?
    Mr. Meade. So, Mr. Chairman, the lawyers within Treasury, 
at IRS, and the Office of Tax Policy are a group of excellent 
lawyers who, time and time again, I am impressed by their 
substantive expertise. I am committed, if confirmed, to work 
with you and this committee to provide whatever assistance we 
can.
    But again, I am, time and time again, impressed by this 
substantive expertise and the care with which they go about 
thinking about the tax laws.
    The Chairman. Thank you.
    Senator Hatch?
    Senator Hatch. Mr. Schultz, on July 12, 2012, the 
Department of Health and Human Services issued an Information 
Memorandum regarding the TANF program, Temporary Assistance to 
Needy Families. Now, this memorandum attempted to explain how 
States could seek waivers of work requirements for welfare 
recipients. At my request, the Government Accountability Office 
determined that this memorandum actually constituted a rule and 
therefore was subject to the Congressional Review Act, or CRA.
    As part of their analysis, GAO requested the views of HHS 
General Counsel to determine why HHS had not determined that 
the memorandum qualified as a rule. According to GAO, HHS 
responded as follows: ``The Information Memorandum was issued 
as a non-binding guidance document and HHS contends guidance 
documents do not need to be submitted to the CRA.''
    Now, GAO disagreed with that conclusion reached by HHS's 
General Counsel's Office and noted that HHS provided ``no 
support for this position.''
    Can you please explain what role you played in making this 
determination?
    Mr. Schultz. Thank you, Senator Hatch. I was involved in 
the determination. We went back and looked at the statute and 
the cases and also what prior administrations have done. This 
is obviously an administration-wide issue.
    For the 16 years since the Congressional Review Act, every 
administration, Republican and Democratic, has submitted 
regulations for review, regulations that require notice and 
comment and so on. This was an Information Memorandum, 
essentially a notice to the States saying, we are open for 
business. If you have a waiver that meets the requirements, you 
can submit it, and we will consider it. This is not the sort of 
thing that has ever been submitted. There are, I think, tens of 
thousands of guidances and so on that are not submitted.
    We did know how important this was to Congress, Senator 
Hatch. The Department did, on the day it was issued, submit it 
to the minority and the majority staff in the House and Senate, 
so we were trying to be very respectful and notify Congress.
    Senator Hatch. Well, in the GAO's language, it said that 
``we cannot agree with HHS's conclusion that guidance documents 
are not rules for the purposes of the CRA,'' and HHS cites ``no 
support for this position.'' The definition of ``rule'' is 
expansive and specifically includes documents that implement or 
interpret law or policy. This is exactly what the HHS 
Information Memorandum does.
    Then they also say, ``In addition to legislative history, 
the CRA specifically includes guidance documents as an example 
of an agency pronouncement subject to the CRA.'' So I am 
concerned about that, as you can imagine. I have raised the 
issue, and I really do not understand.
    Mr. Schultz. No, I understand your concern, Senator Hatch. 
I am disappointed that GAO disagreed with us. We have looked at 
it very carefully, and we looked at the history very carefully. 
In Republican and Democratic administrations, we have followed 
the same practices as everybody else. I think we got it right, 
but I understand the other side.
    Senator Hatch. But can you show any instances where people 
applied for this type of a waiver in the past?
    Mr. Schultz. I am not aware that there have been any 
applications for the waiver. The authority was requested by a 
bipartisan group of Governors. The Secretary simply announced, 
you can apply for a waiver. But I am not aware that there have 
actually been applications; certainly none have been granted.
    Senator Hatch. Well, see, I disagree with you on this. I 
think it is a very, very important question. On that question, 
I do not know whether you can or cannot, but can you explain to 
me why the administration has ignored the Hatch-Camp request 
for correspondence relating to the development of the waiver 
rule between the Office of General Counsel and the policy 
officials at HHS? As you can see, I am very concerned that a 
recent staff inquiry to the HHS Office of Legislation has not 
even been acknowledged.
    Mr. Schultz. Well, yes, I can certainly try to respond. I 
want to say, I worked as a staffer in the House. I did 
oversight, and I understand the importance of oversight and 
how, in order to do oversight, the administration has to 
respond, and we have the duty to do that. I am told that that 
response is being worked on, and you will get a response.
    Senator Hatch. Well, I hope so, because I do not think they 
have been very forthcoming down there on a whole raft of 
issues. Certainly they are not forthcoming with any kind of 
speed or any type of real cooperation, it seems to me. I hope 
you can bring about a change there.
    Mr. Schultz. Yes. I agree with you that you are entitled to 
a prompt response. I will do what I can to be that voice. These 
are not all my decisions, but I will certainly be the voice on 
your side on this.
    Senator Hatch. Well, thank you.
    My time is up.
    The Chairman. Senator, when did you make the request? How 
long ago did you make the request?
    Senator Hatch. Well, here is the chronology on the request 
for information from the General Counsel's Office. Chairman 
Camp and I sent a letter to Secretary Sebelius requesting 
answers to questions regarding the development of the 
Information Memorandum on welfare work waivers. That was sent 
September 21st.
    We requested information no later than October 25th, which 
was more than a month. On October 25th, committee staff sent an 

e-mail to the Office of the Assistant Secretary for 
Legislation, requesting the information. We were informed ``not 
today.'' Committee staff requested a time frame for complying 
with the request and were told ``working on it.''
    On November 8th--and here we are almost into the next 
year--committee staff once again requested a time frame for 
compliance with the request and were once again told 
``oversight staff working on it.''
    On December 11th, committee staff requested an update on 
the request. That e-mail has not been responded to. That was 
December 11th. It has not been responded to by the Office of 
the Assistant Secretary for Legislation. I just think it is 
completely unacceptable and shows a lack of respect and 
responsiveness by this administration.
    The Chairman. Senator, I agree.
    Mr. Schultz, if you can get the Department to make a prompt 
response, that will not go unnoticed.
    Mr. Schultz. I will do everything I can.
    The Chairman. All right.
    Senator Hatch. This is not some itty-bitty issue; this is 
an important issue.
    The Chairman. No, I understand.
    Senator Stabenow?
    Senator Stabenow. Thank you very much, Mr. Chairman. I 
want, first of all, to thank you for recognizing all four 
colleagues who are leaving, and the extraordinary efforts of 
Senator Conrad, Senator Bingaman, Senator Snowe, and Senator 
Kyl. Thank you for doing that.
    Also, I want to send my thanks and best wishes to Russ 
Sullivan--I do not believe I see him here at the moment--for 
all of his efforts. We all collectively owe him a great deal 
for his public service.
    Welcome to both of you, and thank you for being willing to 
be involved in public service as well.
    Mr. Schultz, I want to, just for the record, talk about 
something you and I have talked about that is very important to 
me in health reform. I care about all pieces of it, and having 
it done promptly, and having it done well.
    There is one particular issue dealing with pediatric dental 
coverage, which, as you know, because of some ambiguity after 
we had passed an amendment here in the Finance Committee about 
the intent of the law, that has needed to be cleared up in the 
rules.
    In health reform we worked to ensure that children are able 
to get dental care that they need, and in some cases that would 
save their lives. We have had very unfortunate tragedies that 
have occurred. We expanded access to affordable dental coverage 
for children and wanted to do it in a way that would not 
disrupt current dental coverage of families.
    So to accomplish this, the law intended to ensure that 
stand-alone dental plans of families could meet the essential 
health benefit's pediatric dental requirement in combination 
with a medical plan outside the health exchange marketplace, as 
well as inside. I have spoken to the Secretary a number of 
times, and a number of us, as Senators, have sent letters 
asking to make sure that this is clarified.
    The law intended to ensure that, regardless of how the 
coverage is attained, pediatric dental coverage is still 
required as a part of the essential health benefits package and 
that all relevant consumer protections, such as out-of-pocket 
limits, would apply to stand-alone plans. I just wanted, for 
the record, for you to indicate your awareness of this and 
willingness to work with me and many other Senators to make 
sure we are clarifying this in the final rules.
    Mr. Schultz. Yes, I am aware of it. We have talked about 
it, and it will certainly be a priority.
    Senator Stabenow. Thank you very much.
    Mr. Meade, thank you also for your service. You have a 
broad role as General Counsel when we look at tax reform and 
all of the issues that are so important to moving the economy 
forward in a global economy. I am wondering if you have any 
comments about how we, in our economic recovery, focus on 
manufacturing, which of course is very important in Michigan 
but also in other States, every State actually.
    In fact, according to a New York Times article published in 
January of this last year, for the first time since 1997 
manufacturing employment has risen in two consecutive years and 
in fact is driving much of the recovery as we are making more 
things in America again. So, when we are looking at tax reform, 
do you have any suggestions in terms of growing the 
manufacturing sector as we look at broader tax reform or 
particular policies that you have looked at that would help us 
to continue to grow that part of the economy?
    Mr. Meade. Thank you, Senator, for that question. With the 
lawyers at Treasury, we work very hard with our various policy 
clients to provide them advice on a range of questions. Many of 
the questions that you raise are important policy questions 
that could be considered by the Office of Tax Policy on the one 
hand, or also by the Office of Domestic Finance.
    We see our role very much as partners with those policy 
offices. In some instances we are asked to consider possible 
legislation, possible proposals, looking at the scope of 
authority under current law to do whatever we can to support 
the policy officials.
    I do not know of any particulars on the question that you 
raised. I would be happy to bring those concerns back to 
Treasury and commit that the Office of General Counsel will 
work with the policy officials to support those goals.
    Senator Stabenow. And just very quickly--thank you. If we 
are not able to come to agreement as it relates to the fiscal 
cliff--and I certainly hope we are going to be able to do 
that--and we do not extend the AMT patch, how do you work with 
IRS to ensure that families have some certainty? What happens 
from your end?
    Mr. Meade. That is a critical question that the country is 
focused on at the moment. Right now, obviously, there is a fair 
amount of uncertainty with respect to what will happen with the 
fiscal cliff. The Acting Commissioner, Steven Miller, put out a 
letter yesterday on the AMT. I think there are a lot of 
questions about what will happen with the return season if the 
AMT patch is not put into place. So the lawyers work with the 
policy officials on those questions, but I think right now the 
hope is that the AMT patch is fixed so that there is some 
certainty around that question.
    Senator Stabenow. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. I want to just second 
what you said. I very much hope we reach sufficient resolution 
by the end of this year that addresses not just the AMT patch, 
but there is SGR, there are a lot of provisions which, if not 
addressed by the end of this year, are going to cause just 
terrific hardship at the beginning of next year.
    I will go out on a limb. I think we are going to get some 
kind of agreement this year. We certainly must, for all the 
reasons that we know. But thanks for mentioning AMT. That is 
all the more reason to get an agreement this year.
    Senator Coburn, I apologize to you. I did not notice that 
you were earlier on the list than Senator Stabenow. You are 
next.
    Senator Coburn. Thank you. Welcome, both of you. Mr. 
Schultz, I enjoyed our talk yesterday. You can see from what 
the ranking member had to say the problem with HHS and 
responsiveness, and your commitments to me personally that we 
would see a change in that, I will hold you to that. I think 
you are a man of your word.
    I am sorry I did not have a chance to meet with Mr. Meade. 
I have a big burr in my bonnet, and, unfortunately, you are the 
only leverage I will have to get it cleared up, so it is going 
to become an issue. As part of our oversight in Governmental 
Affairs, we were looking at the New Market Tax Credits. We sent 
a letter to the agency asking for information on it.
    After our letter was sent--and, Mr. Chairman, this is very 
important, because section 6103 of the code provides protection 
for taxpayers, and the protection was not placed on this until 
after I sent a letter requesting the information on the two 
previous times they had readily granted the information to 
members of Congress or GAO.
    So the question I have is, until I see the background, with 
substantial clarity and transparency, of the decision-making 
process that went into it, that all of a sudden, when a member 
of the Senate starts asking questions about it, we now decide 
we are going to use 6103 to not share the information--I would 
just say, if I can get my chairman to agree, we can have the 
information with his blessing if he so asks for it.
    But that is not the question that I am concerned about. I 
am concerned about, when we ask GAO to do further work on this 
and when we ask about it, all of a sudden you all make a 
determination that it is now protected, and it was not before. 
You can understand that that might raise some certain questions 
on our part. Our whole purpose is to do good oversight.
    As ranking member on the Permanent Subcommittee on 
Investigations, as well as ranking member-to-be on Homeland 
Security and Governmental Affairs, these are important issues 
for us to look at: how, when we put something into the tax 
code, it actually plays out. Not having the availability of 
this information limits our ability to assess the effectiveness 
of tax policy.
    So unfortunately, until I see with real clarity an 
explanation, with transparency, which would include all the 
background information, I am going to be hesitant--and I have 
no other reason, after reading all the files on you, to say 
that you are anything other than a perfect fit for this job. 
Until I can be satisfied on that, this nomination is going to 
be held by me, and I am going to work with my colleagues if it 
is brought to the floor, because this is the very thing that 
Senator Hatch is talking about.
    If we cannot have transparency from the agencies when we 
are trying to do a good job for the American people on policy, 
and then we see a ruling invoked that was not invoked until a 
Senator asked for the information, that raises serious 
questions.
    So I do not know if you are prepared to answer that today. 
You do not have to answer that. But I am going to have to be 
satisfied on that, because I think it is highly inappropriate, 
what was done and the way it was done. What we want is truth. 
We are not trying to gore anybody's ox. What we want to know is 
how we are spending tax money in tax policy, and is it working 
and where is it going?
    I do not think we had an illegitimate request. Other than 
that, I know you are highly qualified for this job, and I 
support you fully, but I want that information, and I want it 
in detail with complete transparency.
    I yield back.
    The Chairman. Mr. Meade, are you prepared to address this 
question?
    Mr. Meade. Senator Coburn, unfortunately I am not familiar 
with the particulars of the situation. But of course I will 
take it back to Treasury. I hear your concern, and I want to 
work with you to get your concerns resolved.
    Senator Coburn. That is all I can ask.
    Mr. Meade. I think it is critical that oversight happen, 
that we get back to Congress. We work closely, and I work very 
closely with our three Inspectors General to make sure that 
oversight happens. That is one of my most important 
relationships at Treasury. But I will work with you to make 
sure you get the answers that satisfy you.
    The Chairman. And I will be watching the development of 
this and the resolution of this as well, because it is 
important.
    Senator Roberts, you are next.
    Senator Roberts. Thank you, Mr. Chairman. I associate 
myself with the comments of Senator Hatch and yourself 
regarding our outstanding members who are leaving, and I regret 
that I was not here to put a little frosting on the cake.
    I have, I think, three questions. The answers are ``yes,'' 
and ``as soon as possible,'' so you do not have to worry about 
it.
    Mr. Schultz, along with the Senate HELP Committee, we have 
been looking into the New England Compounding Center, the 
actions by the NECC, and the potential action by the Congress 
in response to the outbreak. But we have made repeated requests 
for information and have yet to receive any really adequate 
information. It really has hindered any progress.
    Of particular interest to me is the timeline of events 
related to the NECC inaction by the Department of Health and 
Human Services and FDA, both prior to and following the 
outbreak. We made this request in early October at the start of 
the meningitis crisis, and, even after asking Dr. Hamburg about 
it during the HELP Committee hearing a while back, we have yet 
to receive a response.
    You are 60 days--well, not you, but the folks in charge--in 
violation of the new Baucus-Hatch doctrine. If you go 90 days, 
you will be sentenced to come to Kansas in January and visit 
every rural hospital and say, I am from CMS, and I am here to 
help. That might not be something you want to do in January. So 
anyway, if you can get that back to us, or at least give us a 
report, I would appreciate it.
    In addition to that, what do you believe are the scope and 
limits of FDA authority as it relates to compounding? What is 
the FDA role, and what is the appropriate role for State boards 
of pharmacy in oversight of this industry? I realize you cannot 
go into that right now, but if you could make a note of that, 
and we will submit that for the record for you, and then if you 
could get back to us.
    Recently, HHS, Treasury, and the Department of Labor have 
issued regulations to implement the provisions of PPACA, the 
Affordable Health Care Act. These include the essential health 
benefits mandated, the actuarial value calculator, market 
rules, and wellness provisions, as well as rules to implement 
provisions relating to risk programs, cost sharing, the 
federally facilitated exchange, user fees, and medical loss 
ratio. There is somewhere between 6 to 8 there that I have 
noted.
    Many of the initial rules in trying to implement the 
statute were called the Interim Final Rules, which allowed very 
little or no stakeholder input. Of the most recently issued 
rules, while none of them are IFRs, many of these only provided 
30 days for public comment.
    Now, this is after the administration took over 18 months 
to draft the regulations and OMB was allowed 4 months for their 
review. That is 22 months. I am just going to tell it like it 
is on what I am hearing from the rural health care delivery 
system, and for that matter our entire health care delivery 
system there in the State of Kansas.
    We have already heard from many stakeholders. A lot of them 
fear they will be unable to meet the timelines for these 
comments. The comments will not represent a thorough review of 
the new policies, and the administration does not value 
stakeholder input in the process--that is not a good thing, to 
say the least--to the point that many stakeholders are 
considering whether time, effort, and expense is even 
worthwhile when they believe their comments are not even being 
considered, but instead are treated as a check-the-box exercise 
to comply with existing executive orders and 
statute-related stakeholder input.
    My question is, what is a reasonable and standard amount of 
time for review and comment on regulations issued in regard to 
PPACA? We also have an important consideration when drafting 
and issuing these regulations. I would repeat, if the folks who 
are drafting the regulations do not know what is in a rule 
after 18 months of drafting and 4 months of OMB review, how can 
we expect stakeholders to know such things and provide valuable 
feedback in a much shorter time frame? There. You have 35 
seconds to respond.
    Mr. Schultz. I certainly agree, notice and comment are 
critical, because regulations have the force of law, Senator 
Roberts. I agree with you that we should use IFRs very 
reluctantly, because, in that case, the comment is after the 
fact. We did it early on because of tight timelines that 
Congress asked us to meet. But as you say, we have done it very 
rarely recently, and I would think that would continue to be 
so.
    We truly value comments from the public. We spent a lot of 
time responding to them and typically make many changes in the 
regulations in response to them. I think we will continue to do 
that. I hope this effort is apparent.
    Senator Roberts. Do you ever go out in the field? I mean, 
out to, say, a typical critical access hospital in Montana, 
Kansas, Oklahoma, Iowa?
    Mr. Schultz. I have not. No, I have not in this job. I talk 
to people----
    Senator Roberts. Do you have time to do that at all?
    Mr. Schultz. No.
    Senator Roberts. I did not think so.
    Mr. Schultz. No.
    Senator Roberts. Could you send a deputy? We have a lot of 
deputies out there.
    Mr. Schultz. We could.
    Senator Roberts. I am not going to do this in January for 
you, but maybe in the spring.
    Mr. Schultz. Well, maybe it would be good.
    Senator Roberts. I think that would be a good thing. I 
might stand a little part away from you. No, I would stand 
right by your side. We will see all the hospital 
administrators, doctors, nurses, and everybody else, all these 
forms and regulations they have to put up with. It will be an 
interesting exercise.
    Mr. Schultz. Senator Roberts----
    Senator Roberts. I have done it twice myself.
    Mr. Schultz. I would, of course, do that with you if you 
would like me to. I do want to say that we have a lot of 
outreach to all the States, and there has been a lot of 
interaction with many officials and others in the States that 
is informal, outside the rule-making process.
    Senator Roberts. We could do it pretty quickly, and we 
could get you a good balance, and I think it would be very 
helpful. I am not going to put you on the spot on that. I know 
you have a ton of things to do, and so do we. But I think it 
would be a good thing if we did that.
    Mr. Schultz. I think it would too.
    The Chairman. Thank you. Thank you, Senator, very much.
    Senator Wyden?
    Senator Wyden. Thank you very much, Mr. Chairman. First, 
with respect to our retiring colleagues--Mr. Chairman, I think 
you would remember this--I hope some of them will in effect do 
a Conrad. As you know, Senator Conrad retired once because he 
said the budget was in balance. Then there was a death, and he 
came back. We were lucky he came back. We have a terrific group 
of colleagues. Maybe we can persuade some of them to do a 
Conrad.
    The Chairman. Is one of the conditions that the budget has 
to be in balance?
    Senator Wyden. Yes.
    The Chairman. I think you are in for a long wait. 
[Laughter.]
    Senator Wyden. Well, I want them back sooner than that.
    The Chairman. Okay. We all do.
    Senator Wyden. I want to say a good word about Russ 
Sullivan. He has such a wealth of knowledge. Mr. Chairman, as 
you know, we spent years talking about Build America Bonds. I 
do not think there was anybody on the planet, other than Russ 
Sullivan, who mastered that subject, along with scores of other 
technical ones.
    The fact that he has all this technical knowledge, while he 
cares for this huge group of children, I think tells you a lot 
about what kind of heart Russ Sullivan has. I often see him, as 
you do, Mr. Chairman, with those kids in the corridor because 
Russ is taking them on a family outing. To have that kind of 
heart for people while you stay here and handle all these 
technical issues says a lot about a person, and we are very 
grateful for your service.
    Mr. Chairman, we have two outstanding public officials. I 
have one question for each of them.
    The first one, for you, Mr. Meade, deals with 
electioneering by tax-exempt social welfare organizations. As 
you know, in the wake of the Supreme Court's decision, there 
has been a proliferation of these entities organized under 
section 501(c)(4) of the code. It just looks like they are 
doing pure politics. I do not want to talk about Democrats or 
Republicans, I just want to talk about what seems to me is an 
abuse of the tax exemption.
    During the 2012 election cycle, an estimated $400 million 
went into secret contributions that were associated with these 
501(c) organizations. In July of 2012, a letter was sent 
responding to a request from the Campaign Legal Center and 
Democracy 21 to change the rules.
    The IRS Exempt Organizations Division Director stated that 
the IRS is aware of the interest in the issue and noted that 
the agency will consider proposed changes in this area as we 
work with the IRS Office of General Counsel. As I understand 
it, you have involvement with them in terms of the reporting.
    The reason I am asking the question is, in November of 
2012, the IRS released its priority guidance plan. It contained 
317 projects that are priorities for allocation of resources. 
Nowhere in the list of agency priorities was there any mention 
of the need to revise and clarify the rules dealing with 
political activities by section 501(c)(4) organizations. When 
you are confirmed, will you try to get this issue on the 
priority list for that agency?
    Mr. Meade. Thank you, Senator, for that question. In terms 
of any particular issue about any particular 501(c)(4), that is 
a question of enforcement for IRS, and we stay away from those 
questions.
    Senator Wyden. I understand.
    Mr. Meade. But in terms of the policy question, I know it 
is something that the Office of Tax Policy and IRS are looking 
at, and I would be happy to look at that issue, to talk to the 
Chief Counsel of the IRS, who is, as you know, a Senate-
confirmed official, and talk about that question and about 
making that a priority for the----
    Senator Wyden. Do you personally think it ought to be a 
priority? I do not want you to have to speak for anybody else. 
Do you personally think it ought to be a priority?
    Mr. Meade. Senator, I have not studied the question. I hear 
your interest in the issue and the fact that you think it is a 
priority. What I want to do is take a look at it and talk to 
the officials within Treasury, talk to the officials within the 
Chief Counsel's Office, and analyze the issue. So I do not know 
enough to know whether it should be a top priority or not, but 
I definitely hear your concern, and I will take that concern 
back to Treasury.
    Senator Wyden. Well, I understand why you want to talk to 
people in the Department. I hope you will come away and say it 
ought to be a priority. This ought to be a priority for good 
government. These abuses are completely out of hand, and you 
know that I am not bringing any kind of partisan tinge in this 
group and that. I think this is an abuse of what is really a 
tax exemption that is supposed to go to social welfare 
organizations.
    A question for you, Mr. Schultz. I have watched your 
outstanding work since the days when we were back on the Health 
Subcommittee over in the House and I had a full head of hair 
and rugged good looks and all. My question is a legal one. That 
is, we have been working very hard to try to get the hospice 
program off the ground, where, for the first time in America, 
the vulnerable would be eligible for curative services as well 
as hospice services.
    The Congress wrote this so that it would be budget-neutral. 
We have been having a lot of challenges at CMS, trying to get 
them to accept the intent of Congress. They say hospice 
providers would have to pay for curative treatment out of their 
own pockets. That was never the intent of Congress.
    Will you work with us so that we can get the congressional 
intent here nailed down and, for the first time, say to the 
vulnerable in America--again, this was supported by people all 
across the political spectrum. They said, when you need 
hospice--Senator Hatch, Senator Grassley, and others have 
worked on these issues for years--you should not have to give 
up hope. That was the intent of Congress. Will you commit to 
working with us?
    Mr. Schultz. Thank you, Senator Wyden. I know this is a 
very important program, and I will certainly work with you and 
do what I can. As you know, I am not the decision-maker on 
this.
    Senator Wyden. Understood.
    Mr. Schultz. So I am happy to work with you on it.
    Senator Wyden. Well, thank you. The reason I ask is, not 
only have I watched you in the past approach these issues 
professionally and fairly, but it has become a legal issue with 
respect to the intent of Congress.
    Thank you for the time, Mr. Chairman.
    The Chairman. Thank you, Senator, very much.
    Senator Grassley?
    Senator Grassley. Well, thank you, Mr. Chairman, for 
holding this hearing. I would like to put in the record a 
statement that I would have about our four colleagues retiring.
    The Chairman. Without objection.
    [The prepared statement of Senator Grassley appears in the 
appendix.]
    Senator Grassley. Mr. Schultz, I have many unanswered 
questions and document requests, as you have heard from other 
members. I have received no response to my December 6, 2011 
letter on eliminating the age requirement for Plan B. I have 
received none of the documents that Chairman Issa and I 
requested regarding monitoring of FDA employees; no response to 
a letter Chairman Upton and I sent on the oversight of Federal 
exchange grants to States.
    I received no response to my September 10, 2000 letter 
regarding Keokuk. I hope you know that, as my other colleagues 
have said, this is unacceptable. Until I receive answers to my 
letters and document requests, I am hesitant to move forward on 
these nominations.
    Question number one. I have some remarks preliminary to it. 
For the past 5 months, Chairman Issa and I have been 
investigating the FDA regarding its spying activities against 
whistle-blowers. The FDA intentionally spied on confidential 
communications with Congress and the Office of Special Counsel 
and the whistle-blowers' private attorneys.
    We have completed four voluntary transcribed interviews 
with key FDA individuals who participated in the spying. Three 
out of the four employees declined to answer when asked about 
anything related to personnel action. They said they were told 
by the agency not to answer such questions, citing the Privacy 
Act. Obviously you know that Congress is exempt from the 
Privacy Act.
    I understand that you were involved in the discussions 
about prepping the FDA employees before their interviews. I 
also understand that, during conversation with my staff, you 
could not recall whether or not you advised the FDA employees 
not to answer questions regarding personnel management.
    Given the clear exemption in the Privacy Act for 
disclosures to Congress, I assume you agree that the FDA 
employees are free to answer questions about personnel action 
during congressional investigations. Is that true?
    Mr. Schultz. Yes. Thank you, Senator Grassley. I was not 
involved in the conversations, but I have gone back and looked 
at the Privacy Act and so on. We will not instruct employees or 
their attorneys not to answer your questions. We certainly 
agree that there is an exemption for Congress from the Privacy 
Act. There are debates about whether it applies to committees, 
chairmen, individual members, and so on. But in this particular 
situation that you are talking about, we believe that at most 
the risk would be very small, and we will certainly not 
instruct the employees not to respond.
    Senator Grassley. You have answered my second question. Let 
me state it anyway, and you do not have to speak further to it. 
Well, let me make a statement. I think you have assured me in 
what you just said that, in the future, you will ensure that 
witnesses know that they are free to make disclosures to 
Congress that might otherwise be prohibited by the Privacy Act.
    For Mr. Meade: on November 1st, Senator Thune and I wrote 
Secretary Geithner a letter in his capacity as chair of the 
Committee on Foreign Investment in the United States regarding 
bankruptcy stimulus recipient A123. We asked seven questions. 
The response we received did not answer a single question.
    When you reviewed this reply letter, did you find any legal 
bases for refusing to answer our questions, and, if so, what 
were they? Finally, does the Treasury still take the position 
that it does not have to respond fully to the letter?
    Mr. Meade. Thank you, Senator Grassley, for that question. 
I did not review that letter before it went out. I know in 
general, with the CFIUS, there are certain statutory 
prohibitions where Treasury is permitted to share information 
with Congress at some point but not at other points under the 
statute passed by Congress. I would be happy to look at that 
particular instance and give you whatever information I can, 
and if not, provide the legal basis for that.
    But what I can say is, I think oversight is critically 
important and providing prompt responses to members of Congress 
is critically important.
    Senator Grassley. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    I want to thank our panelists today for your willingness to 
be here and to continue to serve. I also want to acknowledge 
the departing members of this committee, Mr. Chairman, that 
have been already mentioned. Obviously a lot of firepower, a 
lot of skill and knowledge on the issues that this committee 
deals with will be lost when we lose Senators Snowe, Kyl, 
Bingaman, and Conrad, all people who have tremendous amounts of 
expertise. Hopefully we will be able to muddle along without 
them, but we certainly appreciate their great service and all 
they have contributed to this committee and to our country.
    Let me ask a question, if I might, to Mr. Meade first. This 
question has to do with sort of where we are with regard to the 
fiscal cliff. We are now less than 2 weeks away from seeing tax 
rates rise across the board, that is assuming that Congress and 
the administration cannot come to an agreement on the fiscal 
cliff.
    So my question has to do with the paycheck withholding 
levels for 2013. First, how much latitude do you believe the 
Treasury Department has under the statute when setting 
withholding rates? Second--and again, knock on wood, hope this 
does not happen--should we go over the cliff without an 
agreement, how would Treasury make a decision with regard to 
the withholding tables?
    Mr. Meade. Thank you for that question, Senator Thune, a 
very important question that obviously the country is thinking 
about at this time. The Secretary's discretion on this score is 
limited. The law says that the Secretary needs to set 
withholding tables consistent with the tax laws set by 
Congress.
    The Secretary does not have the authority to unilaterally 
set the tax rates, he needs to reflect the rates set by 
Congress. Hopefully, though, a deal will be reached such that 
this will be unnecessary, but the bottom line is the 
Secretary's withholding tables--any tables that he issues--need 
to reflect the laws set by Congress.
    Senator Thune. So, if there is a scenario where, in the 
near term, it looks like there might be an agreement but that 
has not been struck or at least has not been voted on by the 
end of the year, but there is sort of a framework, or at least 
it looks like there is going to be some closure, your view is 
that the Treasury Department does not have authority even on a 
near-term basis, an interim basis, to maintain the withholding 
tables the way that they are?
    Mr. Meade. So, Senator Thune, that is a slightly different 
question in terms of the particulars of that kind of 
hypothetical. As a lawyer, I want to be very careful giving 
answers to hypothetical questions. As your question reflects, 
there could be many different components of such a hypothetical 
about what the particulars look like.
    The Secretary does have some discretion, but that 
discretion is limited. At the end of the day, what his 
authority is is to reflect the law set by Congress.
    Senator Thune. Thank you.
    Let me ask Mr. Schultz a question, if I might. This one has 
to do with the passage of the health care law. There was a 
particular provision in there that I was concerned about and 
was trying to keep from having added to the law. That is the 
CLASS Act, which is a new long-term care entitlement program 
that was created by the Affordable Care Act.
    Last year on October 14, 2011, Secretary Sebelius announced 
that, based on actuarial legal analysis, the CLASS program is 
both legally and fiscally unsustainable. The report went on to 
conclude that they cannot predict that the CLASS program will 
be able to ``honor its commitments to individuals who had 
already enrolled or entered beneficiary status in the program 
or avoid leaving them worse off.''
    So the question is, do you agree with the analysis 
contained in this report that the CLASS Act is unsustainable? 
If you do not agree with that, why? Then second, if you do 
agree with this report, then would you support the efforts that 
I and others are making to repeal that program?
    Mr. Schultz. Thanks for that question, Senator Thune. We 
worked very hard to try to find a way to implement the act 
because Congress passed it, but looking at the legal 
constraints--including that it had to be sustainable for 75 
years, there were certain guaranteed benefits, certain groups 
that had very reduced rates--the Secretary concluded that she 
could not go forward with a program that people would buy under 
the requirements that Congress imposed. Yes, I do support that 
conclusion.
    We put the legal analysis out there so Congress could see 
it. Whether it should be repealed or not, I think is a decision 
for Congress. We have not been sued on it. I do not think we 
would be. I think what we did is very sustainable. So, I would 
leave it to Congress as to whether to repeal it or not.
    Senator Thune. All right. But in terms of taking a position 
supporting efforts by Congress to repeal it based upon the 
conclusions that you all have drawn--that it is not sustainable 
in its current form--would the administration be able to 
support legislation that would repeal it?
    Mr. Schultz. I would have to leave that to others in the 
administration to speak to. I am merely a nominee at this 
point.
    Senator Thune. On October 17th, HHS received a letter 
regarding concerns that some of my colleagues and I had, and 
still have, regarding the Final Rule for the stage 2 of 
``meaningful use'' for the adoption of electronic health 
records.
    To date, we have about $10 billion that has been paid out 
in incentives to health care providers to implement a useful 
EHR system, and we still have several unanswered questions and 
concerns about the direction of this program. When might we 
anticipate a response on that letter, if it is something you 
are familiar with?
    Mr. Schultz. I am not familiar with it, but I will 
certainly go back and raise this and do what I can to get a 
response.
    Senator Thune. That would be great. That was a couple of 
months ago now. Hopefully we are going to get a response on 
that, so, if you could check that out, that would be great.
    Mr. Schultz. I would be happy to. Thank you, Senator.
    Senator Thune. I see my time has expired, Mr. Chairman. 
Thank you.
    The Chairman. It has.
    Senator Grassley?
    Senator Grassley. Yes. Mr. Meade, on October 2nd, Senator 
Kirk and I wrote Secretary Geithner a letter about manipulation 
of LIBOR. The manipulation has led to billions of dollars in 
losses to the Federal Government. My concern is that the 
Treasury Department is not fully committed to informing 
Congress about the scope of the problem. I understand that, as 
acting General Counsel, you are familiar with the letter and 
the response.
    My letter asked five questions. The reply we received, 
almost 2 months later, did not answer any of them. Here is one 
example. We asked whether Secretary Geithner considered the 
litigation risks of not reporting his knowledge of LIBOR 
manipulation to U.S. enforcement authorities. The letter you 
reviewed did not answer this question. Why did the reply that 
we received not answer this question?
    Mr. Meade. Thank you, Senator Grassley, for the question. I 
am familiar with that letter. My understanding is, in follow-
ups with your staff after the response, we answered that 
question and the other questions.
    The questions asked I believe for the most part, or maybe 
exclusively, for answers about the Secretary during his time at 
the New York Fed. We, I believe, now have answered those 
questions to the satisfaction of your staff. We think the LIBOR 
issue is very important. I think we are pleased that the 
actions of the CFTC and others that began in 2008 have led to 
very strong enforcement actions which we are beginning to see 
the fruit of today.
    Senator Grassley. Yes.
    Also, Mr. Meade, I ask this question as a champion of 
whistle-
blowers and for changes in whistle-blowers legislation, but, 
particularly in this case, tax whistle-blowers. I am concerned 
that some within the IRS and Treasury continue to be 
unsupportive of 
whistle-blowers. My concern results from recent regulations 
proposed by Treasury that unnecessarily put roadblocks in the 
way of 
whistle-blowers. What was your role in preparing those 
regulations?
    Mr. Meade. Senator Grassley, I personally did not play a 
role in crafting those regulations. I would say two things. 
First, these are proposed regulations. They are regulations 
that set out the proposed definitions of a variety of statutory 
terms, as well as give a comprehensive view of a whistle-
blower's experience with the IRS. These are proposed 
regulations. We look forward to input from stakeholders, from 
you, from members of the whistle-blower bar, to make sure that 
we are reaching the right conclusion under the law.
    But I want to say, personally, I am committed to the 
whistle-
blower program. I have heard others in Treasury talk about 
their commitment to the whistle-blowers program. But I can 
commit to you that, if confirmed, I will carry that commitment 
through in my role as General Counsel.
    Senator Grassley. All right. You answered my next question. 
I will follow it up with this, that I do plan to propose 
regulations and expect a thorough response. I expect you to 
help in facilitating a quick response to my concerns. So, you 
answered your concern about protecting whistle-blowers, but 
would you commit to getting me a response when I submit my 
comments on those regulations?
    Mr. Meade. I would be happy to work with you and help 
prepare a response, or at least review a response and make sure 
that you are getting a proper response.
    Senator Grassley. All right.
    Then my last question is for you, Mr. Schultz, and then I 
will be done. The FDA says that spying on its employees was 
justified because they were warned by a security banner on 
their FDA computer that it was being monitored. However, the 
wording of that banner changed during the course of the spying.
    When asked why the banner was changed, all four employees 
interviewed could not recall. Why was the wording of the banner 
changed, and was the language changed in the summer of 2010 to 
justify spying activities that had already taken place?
    Mr. Schultz. I am not aware. I have not seen the two 
banners. I could get you a written response to that, but I do 
not know why the banner was changed. I certainly was not 
involved in that.
    Senator Grassley. I will let you give me a written 
response.
    Could you tell me, was the change reviewed by your office?
    Mr. Schultz. I do not know.
    Senator Grassley. All right.
    Mr. Schultz. It certainly was not reviewed by me.
    Senator Grassley. All right. Then you have answered my last 
question as well, so I will look for your response in writing.
    I thank both of you for being kind enough to answer my 
questions, but I will thank you more if I get regular 
responses, in time.
    Thank you.
    The Chairman. Thank you, Senator, very much.
    Thank you both very much. This committee looks forward to a 
very vigorous and constructive relationship with both of you 
and with your departments, and we wish you both well in the new 
year.
    Thank you very much.
    Mr. Schultz. Thank you very much, Senator Baucus.
    Mr. Meade. Thank you, Mr. Chairman.
    The Chairman. The committee is adjourned.
    [Whereupon, at 4:04 p.m., the hearing was concluded.]
                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 86408.005

[GRAPHIC] [TIFF OMITTED] 86408.006

[GRAPHIC] [TIFF OMITTED] 86408.007

[GRAPHIC] [TIFF OMITTED] 86408.008

[GRAPHIC] [TIFF OMITTED] 86408.009

[GRAPHIC] [TIFF OMITTED] 86408.010

[GRAPHIC] [TIFF OMITTED] 86408.011

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 86408.013

[GRAPHIC] [TIFF OMITTED] 86408.014

[GRAPHIC] [TIFF OMITTED] 86408.015

[GRAPHIC] [TIFF OMITTED] 86408.016

[GRAPHIC] [TIFF OMITTED] 86408.017

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 86408.019

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 86408.021

[GRAPHIC] [TIFF OMITTED] 86408.022

[GRAPHIC] [TIFF OMITTED] 86408.023

[GRAPHIC] [TIFF OMITTED] 86408.024

[GRAPHIC] [TIFF OMITTED] 86408.025

[GRAPHIC] [TIFF OMITTED] 86408.026

[GRAPHIC] [TIFF OMITTED] 86408.027

[GRAPHIC] [TIFF OMITTED] 86408.028

[GRAPHIC] [TIFF OMITTED] 86408.029

[GRAPHIC] [TIFF OMITTED] 86408.030

[GRAPHIC] [TIFF OMITTED] 86408.031

[GRAPHIC] [TIFF OMITTED] 86408.032

[GRAPHIC] [TIFF OMITTED] 86408.033

[GRAPHIC] [TIFF OMITTED] 86408.034

[GRAPHIC] [TIFF OMITTED] 86408.035

[GRAPHIC] [TIFF OMITTED] 86408.036

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 86408.038

[GRAPHIC] [TIFF OMITTED] 86408.039

[GRAPHIC] [TIFF OMITTED] 86408.040

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 86408.042

[GRAPHIC] [TIFF OMITTED] 86408.043

[GRAPHIC] [TIFF OMITTED] 86408.044

[GRAPHIC] [TIFF OMITTED] 86408.045

[GRAPHIC] [TIFF OMITTED] 86408.046

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 86408.049

[GRAPHIC] [TIFF OMITTED] 86408.050

[GRAPHIC] [TIFF OMITTED] 86408.051

[GRAPHIC] [TIFF OMITTED] 86408.052

[GRAPHIC] [TIFF OMITTED] 86408.053

[GRAPHIC] [TIFF OMITTED] 86408.054

[GRAPHIC] [TIFF OMITTED] 86408.055

[GRAPHIC] [TIFF OMITTED] 86408.056

[GRAPHIC] [TIFF OMITTED] 86408.057

[GRAPHIC] [TIFF OMITTED] 86408.058

[GRAPHIC] [TIFF OMITTED] 86408.059

[GRAPHIC] [TIFF OMITTED] 86408.060

[GRAPHIC] [TIFF OMITTED] 86408.061

[GRAPHIC] [TIFF OMITTED] 86408.062

[GRAPHIC] [TIFF OMITTED] 86408.063

[GRAPHIC] [TIFF OMITTED] 86408.064

[GRAPHIC] [TIFF OMITTED] 86408.065

[GRAPHIC] [TIFF OMITTED] 86408.066

[GRAPHIC] [TIFF OMITTED] 86408.067

[GRAPHIC] [TIFF OMITTED] 86408.068

[GRAPHIC] [TIFF OMITTED] 86408.069

[GRAPHIC] [TIFF OMITTED] 86408.070

[GRAPHIC] [TIFF OMITTED] 86408.071

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






</pre></body></html>
